 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




                   PUBLIC
                  RELEASE


  NATIONAL TELECOMMUNICATIONS
AND INFORMATION ADMINISTRATION
         Reporting of Performance Measures
                         Needs Improvement
         Final Audit Report No. FSD-12856/September 2000




        Office of Audits, Financial Statements Audits Division
September 20, 2000


MEMORANDUM FOR:               Gregory L. Rohde
                              Assistant Secretary for Communications and Information


FROM:                         Johnnie E. Frazier

SUBJECT:                      Reporting of Performance Measures Needs Improvement
                              Final Audit Report No. FSD-12856

This is our final report on the performance measures used by the National Telecommunications
and Information Administration. Our audit found a commitment on the part of the bureau to the
verification and validation of its performance data. However, additional efforts are needed to
ensure the accuracy and reliability of data contained in reports submitted by the Department of
Commerce. Specifically, we found that for the performance measures on increased Internet
accessibility and increased telephone subscription rates, NTIA did not disclose that the
performance results were not directly attributable to its programs. We also found that internal
controls needed to be strengthened to ensure that performance information is reported
consistently. We recommend that actions be taken (1) either to revise the performance measures
on Internet accessibility and telephone subscription rates or to provide adequate disclosure that
the bureau is not directly responsible for the results, and (2) establish coordination procedures to
ensure that NTIA fiscal year performance data is reported consistently in the Accountability
Report and in the reports submitted under the Government Performance and Results Act of 1993
(GPRA). (See pages 5-7.)

Your response to the draft report expressed agreement with the findings and recommendations,
and noted that corrective action has been taken. We have incorporated your comments into this
final report, and your complete response is attached.

Please provide your audit action plan addressing the recommendations for our concurrence
within 60 days of the date of this memorandum in accordance with Department Administrative
Order (DAO) 213-5. The plan should be in the format of Exhibit 7 of the DAO. Should you
have any questions regarding the preparation of the audit action plan, please contact me at (202)
482-4661, or Thomas McCaughey, Director, Financial Statements Audits Division, at (202)
482-6044. We appreciate the cooperation and courtesies extended to us by your staff during the
review.
U. S. Department of Commerce                                                                  Final Report FSD-12856
Office of Inspector General                                                                           September 2000


INTRODUCTION

This report presents the results of the OIG’s audit of NTIA’s collection and reporting of
performance measurement data. As part of its efforts to meet the requirements of GPRA and the
Chief Financial Officers Act of 1990, as amended by the Government Management Reform Act
of 1994 (GMRA), the Department of Commerce reports NTIA’s performance results. To be
useful to the Congress, the Office of Management and Budget, and the public, the performance
data must be credible. We performed our review to examine NTIA’s efforts to ensure that
reported performance results were accurate, consistent, and reliable.

GPRA was established in 1993 to improve the effectiveness, efficiency, and accountability of
federal programs by requiring agencies to set goals for program performance and to report on
annual performance compared with the goals. The Department of Commerce FY 1999 Annual
Program Performance Report was the Department’s initial effort to report and comment on the
performance results of its reporting entities, including NTIA. NTIA performance data was also
presented in the Department’s FY 1999 Accountability Report, its first.1

As the President’s principal adviser on telecommunications and information policy issues,
NTIA’s mission is to promote the efficient and effective use of telecommunications and
information resources in a manner that creates job opportunities, enhances U.S. competitiveness,
and raises the standard of living.2 In support of its mission, NTIA included five performance
measures in the Department’s FY 1999 Annual Program Performance Report, and the FY 2001
Annual Performance Plan, and three of those measures in the FY 1999 Accountability Report.
NTIA performance measures for FY 2000 will include (1) the number of filings, testimony, and
speeches; (2) the number of authorized spectrum assignments; (3) increase Internet accessibility
and use; (4) maintain or increase current telephone subscription rates; and (5) the number of
models/grants available for non-profit or public sector organizations. The performance measure
on the number of filings, testimony, and speeches replaces the FY 1999 performance measure on
“lessons learned” packages completed for foreign governments. (See Table 1.)

To be useful in reporting on the fulfillment of GPRA requirements and in improving program
results, the data must be accurate and reliable. GPRA legislation introduces the concepts of data
verification and validation, which refer to quality control needed to ensure that users such as the
Congress and OMB can have confidence in the reported performance information. Verification


        1
           GMRA authorizes the streamlining and consolidation of certain statutory financial management and performance results
      into a single accountability document.

        2
            NTIA Strategic Plan (1999-2004), January 1999.


                                                               2
U. S. Department of Commerce                                                                   Final Report FSD-12856
Office of Inspector General                                                                            September 2000


is the assessment of data completeness, accuracy, and consistency, while validation is the
assessment of whether the data is appropriate for the performance measure.3

                                                          TABLE 1

                                                                                            FY 1999
                                                                                            Annual               FY 2001
                                                                    FY 1999                 Program              Annual
                                                                  Accountability          Performance          Performance
            NTIA Performance Measures                                Report                  Report                Plan
 Number of filings, testimony, and speeches                                                                            T
 Number of authorized spectrum assignments                                T                      T                     T
 Increase Internet accessibility and use                                  T                      T                     T
 Maintain or increase telephone subscription                                                     T                     T
 rates
 Number of models/grants available for non-                               T                      T                     T
 profit or public sector organizations

The Executive Committee, which consists of NTIA senior officials and is supported by the
Chief of the Policy Coordination Division in the Office of Policy Coordination and
Management, is responsible for the bureau’s strategic planning process. The Office of Policy
Coordination and Management is responsible for performance information contained in the
Annual Program Performance Report, while the Budget Division is responsible for the
performance information contained in the Accountability Report. NTIA has a representative on
Commerce’s Strategic Planning Task Force to coordinate the bureau’s GPRA efforts with the
Department.

In their comments on government-wide implementation of GPRA, both the Congress and the
General Accounting Office (GAO) have emphasized the importance of performance data being
credible. Management is responsible for establishing policies or procedures to ensure that data
can be relied upon. NTIA has demonstrated a commitment to the verification and validation of
performance data through its senior executive attention to bureau progress on GPRA, use of
software checks and validations to test frequency applications, and training for federal spectrum
managers.


        3
            Performance Plans: Selected Approaches for Verification and Validation of Agency Performance Information, U.S.
            General Accounting Office, GAO/GGD-99-139, July 30, 1999.


                                                                3
U. S. Department of Commerce                                          Final Report FSD-12856
Office of Inspector General                                                   September 2000


OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to (1) assess the collection and reporting of NTIA performance
information in documents submitted to meet GPRA reporting requirements (the FY 1999
Annual Program Performance Report and the FY 2001 Annual Performance Plan) and GMRA
requirements (the FY 1999 Accountability Report) and (2) determine whether internal controls
are sufficient to ensure that performance data is accurate, consistent, and reliable. The
determination as to whether NTIA performance measures are the most appropriate for the bureau
was not within the scope of our audit. Our audit focused on the performance measures that the
bureau plans to report on for FY 2000 and on bureau efforts to ensure data quality and
reliability.

We performed our review from April to July 2000 by identifying and testing internal controls
surrounding performance measures; assessing NTIA’s commitment to data reliability;
performing procedures to validate and verify performance data; and interviewing departmental
and NTIA officials responsible for generating, maintaining, and reporting the performance data.
Since we relied on computer-generated data for part of our review, we reviewed applicable
controls to ensure the data’s accuracy. Our field work was conducted at NTIA headquarters in
Washington, D.C.

For the performance measure on the number of models/grants available for non-profit or public
sector organizations, we reviewed the entire universe of 43 models and grants awarded in FY
1999. For the measure on the number of authorized spectrum assignments reported in FY 1999,
we evaluated general and application controls over the system generating the data. For the
measures on increase Internet accessibility and use and maintain or increase current telephone
subscription rates, we did not perform detailed verification and validation procedures because
we concluded that NTIA was not directly responsible for the reported results. Our review of the
performance measure on number of filings, testimony, and speeches was limited because this is
a new measure for FY 2000. The audit was conducted in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States, and was performed under the
authority of the Inspector General Act of 1978, as amended, and Department Organizational
Order 10-13, dated May 22, 1980, as amended.

FINDINGS AND RECOMMENDATIONS

I.     Reporting of Performance Information Can Be Improved

We found that there was adequate linkage to NTIA programs and activities for the performance
measures on the number of filings, testimony, and speeches; the number of authorized spectrum
assignments; and the number of models/grants available for non-profit or public sector
organizations. However, additional improvements are needed in the reporting of NTIA’s


                                               4
U. S. Department of Commerce                                                              Final Report FSD-12856
Office of Inspector General                                                                       September 2000


performance measures on increased Internet accessibility and increased telephone subscription
rates because these two measures are not directly linked to NTIA programs and activities. NTIA
did not disclose in the FY 1999 Annual Program Performance Report that the results for the
performance measures on increased Internet accessibility and increased telephone subscription
rates cannot be directly linked to the bureau’s outputs or outcomes. While only the measure on
increasing Internet accessibility and use was included in the FY 1999 Commerce Accountability
Report, appropriate disclosure was not included in this report either. An NTIA official stated
that these two measures were selected because they were closely related to NTIA’s mission and
telecommunications policies. Also, for the measure on increased Internet accessibility, the FY
1999 Annual Program Performance Report stated in the analysis section, “Internet accessibility
and use objectives were substantially achieved based upon NTIA’s activities in FY 1999.”

Department GPRA guidance requires a direct link of measures to bureau programs and
activities. Specifically, it states “Performance measures should be linked directly to the offices
that have responsibility for making programs work. A clear connection between performance
measures and program offices helps to both reinforce accountability and ensure that, in their
day-to-day activities, managers keep in mind the outcomes their organization is striving to
achieve.”4 In addition, OMB Circular No. A-11, Preparation and Submission of Strategic
Plans, Annual Performance Plans, and Annual Program Performance Reports, dated July
1999, states, “An agency may selectively include comments on the quality of the actual
performance data included in the Annual Program Performance Report, where such comments
would be helpful in understanding the accuracy or validity of the data reported.” Without
disclosure to show that NTIA is not directly responsible for the performance results achieved,
the reporting for these measures is misleading, and the accuracy and reliability of the reported
information is reduced.

Recommendation

We recommend that the Assistant Secretary for Communications and Information require that
action be taken to either revise the performance measures on Internet accessibility and telephone
subscription rates to address outputs or outcomes more directly linked to NTIA programs or
provide adequate disclosure that the bureau is not directly responsible for the results.




       4
         The Department’s GPRA guidance is based on Commerce’s interpretation on performance measures as published by GAO.
      According to the Chief of the Systems and Policies Division, the guidance was issued in FY 1997.



                                                            5
U. S. Department of Commerce                                            Final Report FSD-12856
Office of Inspector General                                                     September 2000


Assistant Secretary for Communications and Information Response and OIG Comments

In his written response to the draft report, the Assistant Secretary for Communications and
Information agreed with our findings and recommendation and stated that the recent drafts of the
Department of Commerce FY 2000-2005 Strategic Plan do not include Internet accessibility or
telephone subscription rates as NTIA performance measures. The response added that NTIA has
substituted measures that are more directly linked to NTIA programs. These actions are
consistent with the intent of our recommendation.

II.    NTIA Can Make Additional Improvements to Internal Controls

Additional improvements are needed in NTIA’s internal controls to ensure that performance
information is reported consistently. For example, we found that one measure was not
accurately reported in the Department’s FY 1999 Annual Program Performance Report or its FY
1999 Accountability Report. A second measure was reported appropriately in the
Accountability Report, but not in the Annual Program Performance Report.

For the performance measure on the number of authorized spectrum assignments, results as of
November 26, 1999, were reported, instead of the results as of September 30, 1999, the end of
the fiscal year. Each of the reports is supposed to cover performance through September 30,
1999, and neither discloses the fact that the number of authorized spectrum assignments covers
a longer period. As a result, 437,313 authorized frequency assignments was reported as of
November 26, 1999, instead of 434,728 as of the end of fiscal year 1999.

The data used to report performance information in the two reports was obtained from the CD
ROM used to store Government Master File spectrum assignment data. That CD ROM was not
produced for the end of the fiscal year 1999 due to a system hardware transition of NTIA’s
Frequency Management Records System. Also, two federal agencies had requested that NTIA
not include their records on the CD ROM; thus, the source used for reporting performance
results was incomplete. A more reliable source is the Frequency Management Records System,
which updates the Government Master File on a weekly basis and contains all agencies’ records.

For the performance measure on increased Internet accessibility and use, data covering only the
first quarter of FY 1999 was reported. The FY 1999 Accountability Report disclosed that the
result of 26 percent saturation for the measure on increased Internet accessibility and use was as
of December 1998, but this disclosure was not included in the FY 1999 Annual Program
Performance Report.



                                                6
U. S. Department of Commerce                                          Final Report FSD-12856
Office of Inspector General                                                   September 2000


As a result, it was not clear in the document submitted to satisfy GPRA requirements that the
actual result was based on a “Current Population Survey” on household penetration conducted
by the Census Bureau in December 1998. Procedures were not in place to ensure consistent
reporting in the Accountability Report and the Annual Program Performance Report.

Documented procedures for coordination review efforts are needed to ensure consistent
reporting in the Accountability Report and the GPRA reports. NTIA officials having oversight
over performance measures told us that NTIA’s Budget Division, which is responsible for
performance data contained in the Accountability Report, and the Policy Coordination Division,
which has responsibility for performance data contained in the Annual Program Performance
Report, are prepared to coordinate when it comes time to report for FY 2000.

OMB Circular No. A-123, Management Accountability and Control, defines management
controls as organization policies and procedures used by agencies to reasonably ensure that
reliable and timely information is obtained, maintained, reported, and used for decision-making.
Also, GAO’s Standards for Internal Control in the Federal Government, issued November
1999, states that internal control and all transactions need to be clearly documented and should
appear in management directives, administrative policies, or operating manuals in paper or
electronic form.

Recommendation

We recommend that the Assistant Secretary for Communications and Information require that
coordination procedures are established to ensure that NTIA fiscal year performance data is
reported consistently in the Accountability Report and the reports prepared under GPRA.

Assistant Secretary for Communications and Information Response and OIG Comments

In his written response to the draft report, the Assistant Secretary for Communications and
Information agreed with our findings and recommendation, stating that NTIA has emphasized
the importance of coordination on all agency reports, regardless of the division or office
preparing the input. The response stated that as NTIA gains more experience with the
Departmental reporting requirements, the bureau’s goal will be to provide clear and consistent
data on agency performance. The response is consistent with the intent of our recommendation.

Attachment

cc:    Sarah Maloney, Chief, Policy Coordination Division, NTIA
       Clifton Beck, Budget Officer, NTIA

                                               7
